                             0   r
uV,./   J.r./         ..    •        '±   J   o             ,.   i   L    i. .
                                                                         NL      Jurt         -.    rur.mO rI[Jg,V    ]VJUU"/UU4




DOE F 1325.8
(08-93)
United States Government                                                                           Department of Energy


Memorandum                                                                                  OFFICE OF INSPECTOR GENERAL


                DATE:      January 10, 2006
        REPLY TO
        ATTN OF:           IG-34 (A06GT029)                                      Audit Report No.: OAS-L-06-06

        SUBJECT:           Review of the Independent Auditor's Report on The Institute for Genomic Research
                           for the Year Ending December 31, 2004 *

                TO:        Manager, Chicago Office

                           INTRODUCTION AND OBJECTIVE

                           The Institute for Genomic Research (Institute) in Rockville, Maryland is a not-for-
                           profit center that studies areas such as plant, microbial and mammalian genomics. The
                           Institute receives funding from seven Federal agencies to advance its research and
                           development. As required by the Office of Management and Budget (0MB)
                           Circular A-133, the Department of Energy was designated the cognizant agency for
                           review responsibilities because it provided the predominant amount of direct Federal
                           funding. Deloitte & Touche LLP audited the Institute's financial statements and
                           related information for the year ended December 31, 2004.

                           The purpose of our quality control review was to ensure that the audit
                           performed by Deloitte & Touche LLP met the reporting requirements of the
                           Single Audit Act Amendments of 1996 and OMB Circular A-133. We also
                           determined whether the audit was conducted in accordance with generally
                           accepted Government auditing standards, and whether there were any issues
                           that may require management attention or additional audit work.

                           CONCLUSION AND OBSERVATIONS

                           Based on our review of Deloitte & Touche LLP auditors' qualifications, independence
                           and audit work, we determined that the work of the auditors met the reporting
                           requirements of the Single Audit Act Amendments of 1996 and OMB Circular A-133,
                           and that the audit was conducted in accordance with gsnerally accepted Government
                           auditing standards. In addition, we determined that there were no issues that needed
u         p
    u.L.t_±
         uo.orIA      oua      *u o          war0It     nIWAni.ui          -'   runo   rXvnr     iquuo/UU4




            management's attention or required additional audit work. Since no recommendations
            are being made in this letter report, a formal response is not required.




                                                        Ricke R. Hass
                                                        Assistant Inspector General
                                                        Financial, Technology, and Corporate Audits
                                                        Office of Audit Services
                                                        Office of Inspector General

             Attachment

            cc:    Team Leader, Audit Liaison, CF-1.2
                   Audit Liaison, SC-32.1




                                               2
UI/I/UO   UO:OU   rA'A JU.   aU. » 4000      AI'I'AL rtUalUIUN          -   UK,   riV.IrA          .ijUU4/UU4




                                                                                      Attachment



            SCOPE AND METHODOLOGY

            The fieldwork for this review was conducted during November 2005 at the
            offices of Deloitte & Touche LLP, located in McClean., Virginia. We reviewed
            the Deloitte & Touche LLP audit report, entitled The Institutefor Genomic
            Research: FinancialStatements and Supplemental Informationfor the Year
            Ended December 31, 2004 and IndependentAuditors' Reports In Accordance
            with Government Auditing Standardsand Office of Managementand Budget
            CircularA-133 and related workpapers.

            We discussed the results of our review with Deloitte & Touche LLP
            representatives on November 15, 2005.




                                              3
